a
Cj)

No.

Supreme Court, U.S.
FILED

AUG 0 5 2021
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM 2021
i

CHRISTOPHER BRIAN COPE - PETITIONER
vs.
DARREL VANNOY WARDEN
LOUISIANA STATE PENITENTIARY - RESPONDENTS)

i
i

; i

ON PETITION FOR WRIT OF CERTIORARI TO
UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI

CHRISTOPHER COPE# 604579
MAIN PRISON-EAST YARD
LOUISIANA STATE PENITENTIARY
ANGOLA, LOUISIANA, 70712

QUESTIONS) PRESENTED
1.

Whether petitioner was denied his constitutional right

to have effective assistance of counsel when trial counsel
admitted petitioner's guilt at trial.

Robert Leroy McCoy v.

Louisiana, U.S.S.C. No. 16-8255 (5/ 14/18).

UST OF PARTIES

All parties do not appear in the caption of the case on the cover page. A list of ail
parties to the proceeding in the court whose judgment is the subject of this petition
as follows:

DISTRICT ATTORNEY, 1ST JDC
CADDO PARISH
501 TEXAS STREET
SHREVEPORT, LA., 71101-0000

TABLE OF CONTENTS
OPINIONS BELOW.

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED.

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE WRIT

7

CONCLUSION

13

TABLE OF AUTHORITIES CITED

CASES

Page

U.S. Supreme Court
McCoy V Louisiana, 138 S. Ct. 1500 (2018)

7,9,12

Strickland v. Washington, 466 U.S. 668 (1984)

7,9,
9,11

U.S. v Cronic, 466 U.S. at 655,104 S. Ct 2039

State v Harblson, 315 N.C. 175, 337 S.E. 2d 504, 507 (1985) (cling Wttey v. Sowders, 647
F. 2d 642 (6th Clr. 1981))

11

Louisiana State Court
State v. Cope, No. NO.50746-KH .

4
4

State v. Cope, No. 2016-KH-0481 .
CONSTITUTIONAL PROVISIONS
Fifth Amendment
Sixth Amendment
Fourteenth Amendment
STATUTES AND RULES
Louisiana Revised Statute 14:30

I.

IN THE
SUPREME COURT OF THE UNITED STATES
j

PETITION FOR WRIT OF CERTIORARI

I
The Petitioner, Christopher Cope, respectfully prays that a writ of certiorari Issue
to review the Judgment of the Fifth Circuit Court of Appeals.
OPINIONS BELOW
For cases from federal courts:
The opinion of the United States Fifth Circuit Court of Appeals appears at
Appendix “A” to the petition and is
reported at Christopher Cope v. Parrel Vannoy. ; COA No. 20-80378
i

The opinion of the United States Western District Court of Louisiana appears at
Appendix “B” to the petition and is unpublished,
I

Christopher Cope v. Darrel Vannoy. USDC No. S:18CV-144S
i

For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix “C” to the petition and is reported at
State v. Christopher CopeT; No. 2014-1008 (La. 12/8/14) 153 So 3d 440

The opinion of the Louisiana Second Circuit Court of Appeal
appears at Appendix “D” to the petition and is reported at
State v. Christopher Cope; No. 48,739 (La. App. 2d Cir. 4/09/14), 137 So 3d
151.
The opinion of the District Court and reviewing courts on Post Conviction for the
State of Louisiana appears at Appendix “E” -”G” and are unpublished.

1
I

JURISDICTION
For cases from federal courts:
The date on which the United States Fifth Circuit Court of Appeals decided my case
was June 1,2021.
No petition for rehearing was timely filed in my case.

For cases from state courts:
The date on which the highest state court decided my case was Direct App. 12/8/14
&PCR 8/4/17.
A copy of that decision appears at Appendix “C” & “G”..

The jurisdiction of this Court is invoked under 28 U.S.C. § 1254(1). This petition is
timely pursuant to 28 U.S.C. § 2101 (c).

2

CONSTITUTIONAL AND STATUTORY PROVISION INVOLVED
Fifth Amendment to United States Constlution: “No person shall ... be deprived of life,
liberty, or property, except by due process of law...
Sixth Amendment to United States Constitution: “In all criminal prosecutions, the
accused shall enjoy the right... to have compulsory process for obtaining witnesses in his
favor, and to have the assistance of counsel fbr his defense.0
Fourteenth Amendment, Section 1, to United States Constitution:“... nor shall any state
deprive any person of life, or property without due process of law...
McCoy V Louisiana, 138 S. Ct. 1500 (2018)

3

STATEMENT OF THE CASE
A. STATE COURT PROCEEDINGS
On September 6, 2011, the Caddo Parish District Attorney filed an indictment
charging Christopher Brian Cope with one count of first degree murder, in violation of La. R.S.
14:30.1 R. 21. Specifically, it alleged that on or about October 24, 2012, Mr. Cope murdered
Timothy C. Prunty. R. 21. Mr. Cope entered a plea of not guilty on December 6, 2010, alter
formal arraignment. R. 1.
On June 16, 2011, Christopher Brian Cope filed a motion to suppress confession,
alleging that Mr. Cope has not intelligently waived his Miranda rights and/or that his
confession was not given freely and voluntarily without the influence of fear, duress,
intimidation, menace, threats, inducements, or promises. R. 2, 539-42. Specifically, Mr. Cope
alleged, inter alia, that multiple uniformed officers beat, kicked, and threatened him before his
confession. On October 20, 2011, the State filed an opposiion to the motion to suppress. R.

2, 563-64.
The Trial Court ordered a hearing on the motion be set for October 20, 2011, R. 541,
1307-1480. On November 7, 2011, the State filed a memorandum In opposition to Christopher
Brian Cope's motion to suppress. R. 574-78. On November 15, 2011, the State filed a
supplemental memorandum in opposition of Mr. Cope's motion to suppress. R. 581-83. On
November 16, 2011, Mr. Cope filed a memorandum in support of his motion to suppress, r.
611-17. On November 16, 2011, the District Court denied Christopher Brian Cope's motion to
suppress. R. 618-23,1483.
August 20, 2012,

Christopher Brian Cope filed a motion for discovery regarding

publicity. R. 940-48. Mr. Cope wanted to learn who in the District Attorney's Office provided
1

Other charges were filed; how ever, they were not pursued at the trial at issue herein. R. 2L

4

video of Mr. Cope's arrest to the media, which video was piayed the evening of the hearing on
Mr. Cope's motion to suppress. R. 941.
On September 24, 2012, Christopher Brian Cope filed a motion to change venue. R. 9,
1096-99, 1858-59. on October 24, 2012, Mr. Cope reurged his motion to change venue, and
the Trial Court denied the motion. R. 14,4428-38.
Jury selection commenced on October 11, 2012 and continued until October 24, 2012.
R. 12-14. While picking the jury, 134 jurors were excused lor cause. R. 14. White picking the
alternate jurors, 18 jurors were excused for cause. R. 14.
A jury trial followed from October 26, 2012, until October 30, 2012. R. 14. The State's
case concluded on October 29, 2012. R. 16. Christopher Brian Cope presented his case on
October 30, 2012. R. 16-17. The jury returned a verdict of guilty as charged on October 30,
2012. R. 17,1273.
On October 29, 2012, the Court reviewed Christopher Brian Cope's writ that sought
review of "a trial court ruling disallowing testimony from a defense pathologist to counter the
State's evidence that the injuries suffered by the victim were not survivable, said evidence
relating to the issue of specific intent to kill or inflict great bodily harm.” R. 1274. In reaching
its decision, this Court noted that “[t]he determination of whether specific intent exist is a fact
question for the jury. While the defendant's expert may not testily directly as to specific intent,
he may testify as to the survivability of the victim's wounds. Accordingly, the evidentiary ruling
is hereby reversed." R. 1274 (citations omitted).
From October 31, until November 2, 2012, the penalty phase occurred. R. 17-19. On
November 7, 2012, the Trial Court declared a mistrial in the penalty phase when the jury
announced that it was hopelessly deadlocked. R. 19. On November 8, 2012, the Trial Court
sentenced Christopher Brian Cope to life imprisonment at hard labor without benefit of parole,
5

probation or suspension of sentence. R. 19.
On November 8, 2012, Christopher Brian Cope filed a motion and order for appeal, and
the order of appeal was entered on November 8, 2013. R. 19-20, 1289-91. Mr. Cope's appeal
was filed as a right guaranteed by the Louisiana Constftution. La. Const., Article 1, § 19.
On September 16th, 2013, Mr. Cope, through appointed counsel Douglas L. Harville,
filed his appeal brief to the Second Circuit Court of Appeal. On April 9, 2014, the Second
Circuit Court of Appeal affirmed Mr. Cope's conviction and sentence. App. D. Mr. Cope then
file for certiorari/review in the Louisiana Supreme Court which denied review on December 8,
2014. App. “C”
Petitioner submitted his Uniform Application for Post Conviction Relief on October 12,
2015.
Judge John Moseiy delivered the judgment of the lower court denying Petitioner's
Application in it's entirety on November 19, 2015. App. “E”.

The Second Circuit denied

writs on February 11, 2016. NO.50746-KH App.”F”. The Louisiana Supreme Court followed
suit on. See State ex ret. Christopher Cope v. State, NO. 2016-KH-0481 August 4, 2017.
No. App. “G”.

B. FEDERAL COURT PROCEEDINGS
Cope timely filed a federal petition for habeas corpus under 28 U.S.C. §2241, et seq.,
raising three issues, this issue below being one.
A federal Magistrate Judge recommended that Cope's petition be denied and
dismissed with prejudice.
Federal District Court Judge adopted the magistrate's recommendations.

6

The Fifth Circuit Court of Appeals denied COAon June 1,2021.

STATEMENT OF FACTS
At approximately 3:30 a.m., on October 24, 2010, Christopher Brian Cope shot
and killed Sergeant Timothy C. Prunty at the Circle K located at 3391 Bert Nouns Industrial
Loop, at Dean Road, in Shreveport, Louisiana. R. 4725,4736,4749, 4784-85, 4789-97,4799,
4813,4823.
Christopher Brian Cope tired 14 times and shot Sergeant Timothy C. Prunty five tfrne.
Sergeant Prunty died from blood loss, in part due to a popliteal artery wound to his left leg. R.
5038-40, 5047-48, 5057, 5570.
During his confession, Christopher Brian Cope suggested that shooting at Sergeant
Timothy C. Prunty was designed to lead to Mr. Cope's death, /.e., was meant to be a "suicide
by cop.” R. 5724

REASONS FOR GRANTING THE PETITION
There is one questions of law to be settled here: (1) whether the Christopher Cope's
trial counsel was ineffective in admitting his guilt to the jury, especially after Christoper Cope
pied not guilty.
The Louisiana and Federal courts erred in their decision denying petitioner's
claims relief.
The petitioner alleges (1) McCoy V Louisiana, 138 S. Ct. 1500 (2018), held
that defense counsel's admission of guilt over a client's express objection violates the
Sixth Amendment. The court's below concluded, in conflict with a decision of the
7

Louisiana Supreme Court, that McCoy does not apply if the defendant admits killing
the victim. In reversing McCoy's conviction, this Court held that a defendant has the
right to insist that counsel not admit his guilt, regardless of counsel's view of how best
to protect the defendant's interests. 138 S. Ct. at 1505. Whether to admit guilt is a
question not of strategy but of a client's fundamental objectives, and it is therefore a
decision reserved for the client. See id. The Court explained:
With individual liberty - and in capital cases, life - at stake, it
is the defendant's prerogative, not counsel's, to decide the
objective of his defense: to admit guilt in hope of gaining
mercy at the sentencing stage, or to maintain his innocence
leaving it to the State to prove his guilt beyond a reasonable
doubt....

There is no doubt that counsel was ineffective and the effect of this
ineffectiveness denied petitioner his right to a fair trial. There is a reasonable
probability that the result of the proceeding would have been different if the jury had
not heard from Petitioner's counsel that he was guilty. It should be noted that the court
did not address this allegation under deficiency of trial counsel.
The post conviction court erred in making a decision on these allegations of
ineffective assistance of counsel without holding an evidentiary hearing to ascertain
the truth, which if these allegation prove true would grant petitioner relief.

8

Petitioner disagrees with the state's rulings as they are contrary to clearly
established federal law. See, Robert Leroy McCoy v. Louisiana, U.S.S.C. No. 16-8255
(5/14/18); Strickland v. Washington, 466 U.S. 668 (1984); U.S. v Cronfc, 466 U.S. at
655J04S. Ct 2039.
The rulings of the Louisiana Courts in this case are in conflict with McCoy,
Cronic, and Strickland, supra, and the Sixth Amendment, and is a departure from
clearly established Federal law, as determined by the Supreme Court of the United
States and an unreasonable determination of facts in light of the evidence presented
in the State court proceedings.
These issue presented below are clearly ripe for review by this Honorable Court
to decide the important question.

9

CLAIM NO. 1
TRIAL COUNSEL ADMITTED PETITIONER'S GUILT
INEFFECTIVE ASSISTANCE OF COUNSEL
Mr. Cope (herein petitioner) was assigned two experienced public defenders. In their
judgment the evidence against Petiioner would result in his conviction. They decided that the
best trial strategy would be to acknowledge that petitioner did commit first degree murder of
Officer Prunty and hope to show that petitioner was a good person in hopes of avoiding the
death penalty.
In their opening statement counsel for petitioner stated that they were not denying
Mr. Cope's guilt, that he was guilty of the crime of which he was charged and we have
no doubt as to his guilt. Ladies and gentlemen, he did it, we know he (fid It, he
confessed to It. We are not arguing whether or not he Is Innocent or guilty.' Then in
closing, defense counsel conceded, “As I told you In opening statement, we are not here
to minimize or pretend otherwise, than the death of Timothy Prunty is ultimately the
responsibility of Christopher Cope.’’Petitioner repeatedly told counsel that he pled not
guilty and did not agree which this strategy but counsel disregarded pensioner's request.
The jury found petitioner guilty of first degree murder but could not agree on the
punishment, and under Louisiana law the trial judge sentenced Petitioner to life without
possibility of parole.
The Sixth amendment right to effective assistance of counsel derives from the
defendant's fundamental right to a fair trial, a gold best achieved by ensuring that the process
involves vigorous partisan advocacy by both sides. As the Cronlc court pointed out. u[T]he
adversarial process protected by the Sixth Amendment requires that the accused have

10

'counsel acting in the role of advocate.1 The right to effective assistance of counsel is thus the
right of the accused to require the prosecution's case to survive the crucible of meaningful
adversarial testing.” U.S. v Cronfc, 466 U S. at 655,104 S. Ct 2039.
The question before the court is whether, by explicitly conceding petitioner's guilt from
the beginning of the case, counsel “fail[ed] to subject the prosecution's case to meaningful
adversarial testing.” The impact upon the adversarial process of conceding guilt over the
client's express objection was described by the Supreme Court in North Carolina in these
terms:
This Court is cognizant of situations where the evidence is so
overwhelming that a plea of guilty is the best trial strategy.
However, the gravity of the consequences demands that the
decision to plea guilty remains In the defendant's hands. When
counsel admits his clients guilt without first obtaining the client's
consent, the client's rights to a fair trial and to put the State to the
burden of proof are completely swept away. The practical effect is
the same as if counsel had entered a plea of guilty without the
client's consent. Counsel in such situations denies the client's right
to have the issue of guilt or innocence decided by a jury. State v
Harbfson, 315 N.C. 175, 337 S.E. 2d 504, 507 (1985) (citing Wiley
v. Sowders, 647 F. 2d 642 (6th Cir. 1981)).
Petitioner did not consent to trial counsel pleading him guilty and trial counsel did not
contest any of the prosecution's case. The sixth amendment does not requfre counsel to
invent a defense or act in an unethical manner. It does, however, require counsel to put the
prosecutions case to the test through vigorous partisan advocacy. ”[E]ven when no theory of
defense is available, if the decision to stand trial has been made, counsel must hold the
prosecution to its heavy burden of proof beyond a reasonable doubt.” Cronfc, 466 U.S. at
656-57 n. 19,104 S. Ct. 2039.
A lawyer who informs the jury that it is his view of the evidence that there is no
reasonable doubt regarding the only factual issues that are in dispute has utterly failed to
11

“subject the prosecution's case to a meaningful adversarial testing.” Cronic, 466 U.S. at 659,
104 S. a. at 2047.
Petitioner was deprived of the right to due process and effective assistance of counsel
that was prejudice per se and should be granted a new trial.
The Supreme Court recently held: The trial court violated the defendant's constitutional
rights by allowing his prior counsel to concede, over his client's objections, that the defendant
committed the three murders of which he was accused. Robert Leroy McCoy v. Louisiana
U.S.S.C. No. 16-8255 (5/ 14/18).
The Court held that the Sixth Amendment guarantees a defendant the right to choose
the objective of his defense and to insist that his counsel refrain from admitting guilt, even
when counsel's experience-based view is that confessing guilt offers the defendant the best
chance to avoid the death penalty. In McCoy's case, the violation of his protected autonomy
was manifest when the trial court allowed counsel to take control of the issue of innocence or
guilt that was solely McCoy's to make. In making that decision for McCoy, over his objection,
counsel violated his client's Sixth Amendment-secured autonomy which is ranked a
"structural” error and is not subject to harmless error review.
An error is structural if it is not designed to protect defendants from erroneous
convictions, but instead protects some other interest, such as the fundamental legal principle
that a defendant must be allowed to make his own choices about the proper way to protect
his own liberty. Because counsel's admission of McCoy's guilt over the client's express
objection was a structural error, since it blocked the defendant's right to make a fundamental
choice about his own defense, AfcCoy was entitled to a new trial without any need first to
show prejudice. Such is the case here and Mr. Cope is entitled to the same result.

12

CONCLUSION
The petition fora writ of certiorari should be granted.
Respectfully submitted,
v

uS

Christoph* Cope # 6(94579
Date:

Z

2021

13

